No. 19-511

 

IN THE

Supreme Court of the United States

FACEBOOK, INC.,
Petitioner,
Vv.
NodAu DUGUDD, individually and on behalf of
himself and all others similarly situated,
Respondent.
and
UNITED STATES OF AMERICA,

Respondent-Intervenor

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

SUPPLEMENTAL REPLY BRIEF FOR
PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,834 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 10, 2020.

    

Colin Casey
Wilson-Epes Printing Co., Inc.
